December 8, 2020
Via Electronic Filing and E-mail

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE: William P. Barr, Attorney General, et al., v. Esteban Aleman Gonzalez, et al., (20-322)
Dear Mr. Harris:
Respondents write to request an additional 30-day extension of time to file a brief in opposition
to the petition for writ of certiorari in William P. Barr, Attorney General, et al., v. Esteban
Aleman Gonzalez, et al., No. 20-322. Specifically, Respondents seek to extend their response
time from December 14, 2020, to January 13, 2021. Respondents seek this extension in light of
counsel’s substantial obligations, including filing the brief in opposition this week to the petition
for certiorari in ICE v. Padilla, No. 20-234. Respondents’ obligations are further complicated by
the current public health emergency related to COVID-19, which has forced the closure of each
of the offices where Respondents’ counsel normally work. In addition, the pandemic has forced
closures of schools, camps, and child care facilities, which requires Respondents’ counsel to care
for minor children during this time.
Petitioners through counsel have indicated they object to the proposed extension.
Thank you for your time and consideration in this matter.
Sincerely,

Matt Adams
Counsel for Respondents
matt@nwirp.org
cc:

Jeffrey B. Wall, Counsel for Petitioners
Vivek Suri, Counsel for Petitioners

